No. 20-890
IN THE

Supreme Court of the United States
————
STANFORD VINA RANCH IRRIGATION COMPANY,
v.

Petitioner,

STATE OF CALIFORNIA, STATE WATER RESOURCES
CONTROL BOARD, STATE WATER RESOURCES CONTROL
BOARD MEMBERS FELICIA MARCUS, DOREEN D’ADAMO,
FRANCES SPIVY-WEBER, STEVEN MOORE, AND
TAM DODUC; and DOES 1 THROUGH 20,
Respondents.
————
On Petition for a Writ of Certiorari to the
Court of Appeal of the State of California,
Third Appellate District
————
BRIEF OF NORTHERN CALIFORNIA WATER
ASSOCIATION AS AMICUS CURIAE
IN SUPPORT OF PETITIONER
————
STEVEN P. SAXTON
Counsel of Record
DOWNEY BRAND LLP
621 Capitol Mall
18th Floor
Sacramento, CA 95814
(916) 444-1000
ssaxton@downeybrand.com
Counsel for Amicus Curiae
January 21, 2021
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D. C. 20002

TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES ................................
INTEREST OF AMICUS CURIAE .....................
SUMMARY OF THE ARGUMENT ....................
ARGUMENT ........................................................
I. THE COMBINATION OF PER SE
RULES AND MECHANISTIC INVOCATIONS OF QUASI-LEGISLATIVE
AUTHORITY EXEMPLIFIED BY THIS
CASE NULLIFIES DUE PROCESS
PROTECTION AND EXTENDS THESE
TOOLS OF NULLIFICATION TO
ADMINISTRATIVE AGENCIES GENERALLY .........................................................

ii
1
2
4

4

II. THIS CASE PRESENTS THE OPPORTUNITY TO FASHION A RULE
THAT PROTECTS DUE PROCESS
RIGHTS REGARDLESS OF WHETHER
THE
AGENCY
CHARACTERIZES
ITS ACTION AS LEGISLATIVE OR
ADJUDICATIVE ......................................

11

III. THIS CASE PRESENTS THE OPPORTUNITY TO REQUIRE THAT INVOCATIONS OF QUASI-LEGISLATIVE AUTHORITY PROCEED IN ACCORDANCE WITH CLEARLY DEFINED
ANALYTICAL CRITERIA........................

13

IV. THE PETITION PRESENTS A UNIQUE
OPPORTUNITY TO GUIDE ADMINISTRATIVE POWER AND PROTECT
THE SEPARATION OF POWERS ..........
CONCLUSION ....................................................

18
20

(i)

ii
TABLE OF AUTHORITIES
CASES

Page(s)

Abatti v. Imperial Irr. Dist.,
52 Cal.App.5th 236 (2020) ........................

13

Ass’n of Nat. Advertisers, Inc. v. F.T.C.,
627 F.2d 1151 (D.C. Cir. 1979) .................

7

Bank of America, N.A. v. State Water
Resources Control Board,
42 Cal.App.3d 198 (1974) .........................

13

Bi-Metallic Investment Co. v. State
Board of Equalization,
239 U.S. 441 (1915) ...................................

16

California School Boards Assn. v.
State Bd. of Education,
240 Cal.App.4th 838 (2015) ......................

14

Casitas Municipal Water District v.
United States,
708 F.3d 1340 (Fed. Cir. 2013) .................

13

Federal Trade Commission v. Ruberoid
Co.,
343 U.S. 470 (1952) ................................... 6, 7, 8
Free Enterprise Fund v. Public Co.
Accounting Oversight Bd.,
561 U.S. 477 (2010) ...................................

19

Gallo v. U.S. Dist. Court For Dist. of
Arizona,
349 F.3d 1169 (9th Cir. 2003) ...................

12

Garcia-Rubiera v. Fortuno,
665 F.3d 261 (1st Cir. 2011) .....................

11

iii
TABLE OF AUTHORITIES—Continued
Page(s)
Gutierrez-Brizuela v. Lynch,
834 F.3d 1142 (10th Cir. 2016) ................. 18, 19
Harris v. County of Riverside,
904 F.2d 497 (9th Cir. 1990) ..................... 16, 17
Horn v. County of Ventura,
24 Cal.3d 605 (1979) .................................

17

Ivanhoe Irr. Dist. v. All Parties,
47 Cal.2d 597 (1957) .................................

13

Joslin v. Marin Mun. Water Dist.,
67 Cal. 2d 132 (1967) ................................

16

L C & S, Inc. v. Warren County Area Plan
Com’n, 244 F.3d 601 (7th Cir. 2001) ........

11

Light v. State Water Resources Control
Board, 226 Cal.App.4th 1463 (2014) ........ 9, 10
Natl. Audubon Soc. v. Superior Court,
33 Cal.3d 419 (1983) .................................

15

Patterson v. Central Coast Regional. Com.,
58 Cal.App.3d 833 (1976) .........................

14

Stanford Vina Ranch Irrigation
Company v. State,
50 Cal.App.5th 976 (2020) ...................... 5, 6, 15
Thomas v. City of New York,
143 F.3d 31 (2d Cir. 1998) ........................

11

United States v. Florida East Coast Ry.
Co., 410 U.S. 224 (1973) ...........................

11

United States v. State Water Resources
Control Board,
182 Cal.App.3d 82 (1986) .........................

13

iv
TABLE OF AUTHORITIES—Continued
Page(s)
Vermont Yankee Nuclear Power Corp. v.
Natural Resources Defense Council, Inc.,
435 U.S. 519 (1978) ................................... 8, 17
Wilson v. Hidden Val. Mun. Water Dist.,
256 Cal.App.2d 271 (1967) ....................... 14, 17
CONSTITUTION
Cal. Const. art X, § 2 ................................ 4, 15, 16
STATUTES
5 U.S.C. §§ 551-559 (2018) ...........................

7

Cal. Code Regs. tit. 23, former § 877 ...........

4

Cal. Code Regs. tit. 23, former § 877(a) .......

5

Cal. Water Code § 1058.5 .............................

4

INTERESTS OF AMICUS CURIAE1
The Northern California Water Association (“NCWA”)
is a nonprofit corporation established in 1992. Its
principal purpose is to advance the economic, social,
and environmental sustainability of the Sacramento
Valley by enhancing and preserving the water rights,
water supplies, and water quality of the region.
NCWA’s members include private landowners, public
water agencies, mutual water companies and counties.
NCWA’s members utilize water to serve farmland,
cities, rural communities, wildlife refuges, wetlands,
fisheries, and recreation. NCWA supports the petition
for writ of certiorari and asks the Court to protect the
constitutional guarantee of due process both with
respect to California water rights and to administrative actions generally.
This case exemplifies an administrative agency’s
power to nullify vested property rights by defining
them out of existence through per se rules. The
California State Water Resources Control Board’s
(“State Board”) actions at issue in this case undermine
the basic foundation of property rights, water management and water service in California, by effectively
taking water rights without due process. The State
Board’s curtailment of water rights without affording
adequate due process not only violates state and
federal constitutional requirements, it also injects
significant uncertainty into a water rights system that
depends on reasonably stable expectations, especially
1

Amicus has notified counsel for all parties of their intention
to file this brief, and all parties have provided written consent.
Sup. Ct. Rules 37.2(a). This brief was not authored in whole or
in part by counsel for any party, and only Amicus, its members or
counsel, made monetary contributions to this brief. Sup. Ct. Rule
37.6.

2
under drought conditions. The formalistic regulatory
tools the State Board employed in this matter threaten
due process protections in a broader administrative
context.
As explained more fully below, the Opinion of the
California Court of Appeal, Third Appellate District,
fails to properly analyze the scope of the State Board’s
quasi-legislative authority and contravenes longsettled rules regarding the protections accorded to
water right holders. In doing so, the Opinion creates
instability and uncertainty for NCWA’s members.
NCWA’s members rely on the certainty provided by
California’s water rights priority system to make
decisions on how to best manage the Sacramento
Valley’s precious water resources. These decisions, in
turn, affect the economy and environment of the
Sacramento Valley.
SUMMARY OF THE ARGUMENT
Due process is a constitutional cornerstone of governmental legitimacy. The petition for writ of certiorari seeks relief from an agency’s exercise of purported
quasi-legislative authority where the action should
have been classified as quasi-judicial, thus triggering
appropriate due process protections. The agency
action at issue was a regulation by the State Board
that redefined the nature and scope of vested water
rights—property rights that cannot be taken without
due process and just compensation—as to a small
number of entities and individuals in limited geographic and other circumstances. The regulation
applied to extremely narrow, future, drought-related
conditions. In the past, where the State Board has
limited such vested property rights, it has utilized an
adjudicative process. Here, however, the State Board
avoided due process by taking advantage of the

3
extreme leeway agencies have in determining whether
their actions are “quasi-legislative” versus “quasijudicial.”
The State Board’s choice of procedures resulted in a
deliberate elimination of due process protections. In
its regulation, the State Board adopted a per se
redefinition of Petitioners’ water rights, and employed,
with inadequate analysis, a mechanistic classification
of its action as quasi-legislative. The resulting elimination of due process protection for those affected calls
urgently for the adoption of a clarifying rule or rules
that would straightforwardly mandate due process for
purely procedural administrative impacts on traditionally vested property rights. A rule such as that
discussed below would guide the administrative
process, especially where due process disappears as a
result of the imposition of per se rules.
In addition to establishing a clarifying rule to check
unexamined administrative impingements on due process protections, this Court should mandate the
application of appropriate analytic criteria to the
classification of agency actions as quasi-legislative.
This will ensure some measure of fairness by shifting
the focus from mechanistic classification to examining
the nature of the rights affected and shifting the
balance toward ensuring due process protections when
classification becomes difficult or doubtful. Requiring
decisional criteria will also ensure that due process is
not discarded, as it was here, by an off-handed,
conclusory determination by both the State Board and
the Court of Appeal. California courts have previously
employed an appropriate analytical framework in this
regard, as discussed below. In this case, however, the
State Board and the Court of Appeal ignored it.

4
ARGUMENT
I. THE COMBINATION OF PER SE RULES
AND MECHANISTIC INVOCATIONS OF
QUASI-LEGISLATIVE AUTHORITY EXEMPLIFIED BY THIS CASE NULLIFIES
DUE PROCESS PROTECTION AND
EXTENDS THESE TOOLS OF NULLIFICATION TO ADMINISTRATIVE AGENCIES
GENERALLY.
To address a statewide drought, the California
Legislature amended California Water Code section
1058.5 to permit the State Board to adopt emergency
regulations to prevent the unreasonable use of water.
Pursuant to this amendment, the State Board—
the agency charged with the administration of
water rights and water quality in California—twice
adopted “emergency” regulations establishing minimum instream flows on Deer Creek, a small stream in
rural northern California with seventeen water right
holders that ultimately flows to the Sacramento River,
through the San Joaquin-Sacramento River Delta, and
into the San Francisco Bay before draining to the
Pacific Ocean. See Stanford Vina Ranch Irrigation
Company Petition for Writ of Certiorari (“Stanford
Vina Petition”), at 8 (2020) (regulations applied to only
seventeen Deer Creek water right holders). The
regulations provided that diversions from Deer Creek
“that would cause or threaten to cause flows” to fall
beneath minimum flow levels established by the State
Board constituted a waste and unreasonable use of
water under Article X, Section 2 of the California
Constitution. Cal. Code Regs. tit. 23, former § 877.
The stated purpose of the emergency regulations was
not to address the impacts and causes of the drought
statewide, but rather to protect endangered salmon

5
that sometimes inhabit Deer Creek. See Cal. Code
Regs. tit. 23, former § 877(a); Stanford Vina Ranch
Irrigation Company v. State, 50 Cal.App.5th 976, 991
(2020) (observing that one curtailment order was
suspended “due to the absence of [species of concern]
in Deer Creek.”).
During the administrative process, the State Board
acknowledged that it would be preferable to undertake
“adjudicative water right proceedings” to assign
responsibility for minimum instream flows. See
Stanford Vina Petition, Appendix H at 126 (2020).
Nonetheless, the State Board styled its emergency
regulations and related enforcement actions as quasilegislative in nature to avoid compliance with what it
characterized as “cumbersome” constitutional due
process requirements. See Stanford Vina Petition,
Appendix N at 192 (2020). The State Board subsequently issued four separate curtailment orders
pursuant to the emergency regulations, directing all
water right holders on Deer Creek to cease diverting
water in 2014 and 2015. See Stanford Vina Petition,
Appendix D at 60-63, Appendix H, I, J, K, L, M (2020).
Petitioner Stanford Vina filed the underlying civil
action in October 2014. The operative complaint
alleged that the State Board’s adoption of the emergency regulations and issuance of the curtailment
orders violated Stanford Vina’s constitutional rights to
due process and constituted a taking of private property triggering the constitutional requirement of just
compensation. This Amicus brief focuses on Stanford
Vina’s due process claims. With respect to those
claims, Stanford Vina asserted that the State Board
was required under state and federal law to hold an
evidentiary hearing before it could adopt and enforce
the emergency regulations.

6
In the trial court, the State Board argued that
Stanford Vina was not deprived of due process because
the emergency regulations themselves determined
that Stanford Vina lacked a constitutionally protected
interest in diverting water from Deer Creek. The trial
court was understandably troubled by the circularity
of this argument: “There is a ‘chicken and egg’ problem because it is the Water Board’s actions, challenged
in this case, which ostensibly established Stanford
Vina’s use was unreasonable and contrary to the
public trust.” See Stanford Vina Petition, Appendix D
at 76 (2020). Despite its stated reservations, the trial
court determined that Stanford Vina was not entitled
to the level of due process of law that is required in a
quasi-adjudicatory proceeding, and that should be
accorded to a water right holder, because the State
Board’s adoption of the emergency regulations was
“quasi-legislative” in nature. The Court of Appeal
upheld this determination. Stanford Vina Ranch
Irrigation Company v. State, 50 Cal.App.5th 976, 1008
(2020).
This case exemplifies an agency’s power to nullify
vested property rights by defining them away through
per se rules—in this case, of unreasonableness—that
have a patently adjudicative effect. Such rulemaking
must not be allowed to erase the due process protections otherwise accorded to those rights. Courts have
long recognized that administrative rulemaking is
fraught with uncertainty, in part because of overlap
with adjudicative actions. As Justice Jackson said
bluntly in his dissent in Federal Trade Commission v.
Ruberoid Co., 343 U.S. 470 (1952):
Courts have differed in assigning a place to
these seemingly necessary bodies in our constitutional system. Administrative agencies

7
have been called quasi-legislative, quasiexecutive or quasi-judicial, as the occasion
required, in order to validate their functions
within the separation-of-powers scheme of
the Constitution. The mere retreat to the
qualifying ‘quasi’ is implicit with confession
that all recognized classifications have broken down, and ‘quasi’ is a smooth cover which
we draw over our confusion as we might use
a counterpane to conceal a disordered bed.
Federal Trade Commission v. Ruberoid Co., 343 U.S.
470, 487 (1952).
As the State Board did here, administrative agencies will sometimes strain to classify the actions they
take into one of two categories: rulemaking (i.e.
making a rule or “quasi-legislative action”) or adjudication (i.e. invoking an order or “quasi-judicial
action”). After all, the Administrative Procedure Act
(“APA”) prescribes different procedures that an agency
must follow depending upon whether their action is a
formal or informal rulemaking or adjudication. See
5 U.S.C. §§ 551-559 (2018); see Ass’n of Nat.
Advertisers, Inc. v. F.T.C., 627 F.2d 1151, 1160
(D.C. Cir. 1979). The APA defines “rulemaking” as
the “agency process of formulating, amending, or
repealing a rule,” which is the “whole or part of an
agency statement of general or particular applicability
and future effect designed to implement, interpret, or
prescribe law or policy . . . .” 5 U.S.C. § 551 (2018). An
“adjudication,” on the other hand, is the formulation of
an “order,” which means “the whole or a part of a final
disposition, whether affirmative, negative, injunctive,
or declaratory in form, of an agency in a matter other
than rule making but including licensing.” Id.

8
Importantly, in Vermont Yankee Nuclear Power
Corp. v. Natural Resources Defense Council, Inc., 435
U.S. 519 (1978), this Court observed that some rulemaking proceedings can involve “quasi-judicial” determinations. Vermont Yankee Nuclear Power Corp.
v. Natural Resources Defense Council, Inc., 435 U.S.
519, 542 (1978). This undercuts the idea that “quasijudicial” actions fit neatly into the category of an
agency “adjudication,” while “quasi-legislative” actions
fit neatly into the category of an agency “rulemaking.”
It also promotes the idea Justice Jackson proffered
that the “quasi-legislative, quasi-executive, and quasijudicial” classifications are a strained attempt to
squeeze administrative functions into the separationof-powers formulation. See Federal Trade Commission v. Ruberoid Co., 343 U.S. 470, 487 (1952).
However, in reality, the “retreat to the qualifying
‘quasi’ is implicit with confession that all recognized
classifications have broken down, and ‘quasi’ is a
smooth cover which we draw over our confusion . . . .”
Id. Therefore, according to the Court’s logic in Vermont
Yankee, a “quasi-judicial” or “quasi-legislative” nametag assigned to an agency’s action is not dispositive of
whether the action is a rulemaking or an adjudication—and, further, perhaps rulemakings and adjudications are not cleanly separate categories.
This is precisely the dilemma posed by this case:
the State Board assigned a convenient nametag to
its action without examining Petitioners’ underlying
rights. Amicus and its members are acutely concerned
with this case particularly because the regulation at
issue and its ramifications are not isolated. Admittedly, the regulation at issue applied in narrow
circumstances to a small group, and with only vague
future application. First, and partly the point here,
the action met the criteria for quasi-adjudicative

9
action. Secondly, however, nothing about this regulatory procedure ends with this agency, or with water
rights or drought exigencies. Under the court’s
reasoning, the State Board or any agency could simply
redefine the scope or nature of any right or obligation
and thereby place its modification beyond the reach
of due process. Moreover, the court’s citation to the
“emergency” nature of the Board’s action has no
bearing on logic supporting the determination that
either no vested right was affected, or that the action
itself was quasi-legislative in nature. In short, the
reach of the court’s justification for upholding the
agency action has no evident limit.
The Court of Appeal relied on the decision in
Light v. State Water Resources Control Board, 226
Cal.App.4th 1463 (2014) to support its determination
that the State Board regulations were legislative in
nature and, importantly, that a per se rule that cancels
due process protection is unproblematic. But, the
State Board regulation in Light did not limit any
individual diversions of water; it simply established a
regulatory process under which such limitations might
be imposed in the future following additional regulatory decision-making. In fact, the regulation in Light
delegated the task of determining what diversion
limitations needed to be imposed to comply with the
regulation to local bodies composed of individual
diverters themselves. Light v. State Water Resources
Control Board, 226 Cal.App.4th 1463 (2014). In other
words, limitations on diversions were not imposed in
Light as an immediate response to the State Board’s
regulation. Instead, the State Board “established a
schedule allowing for the collection and analysis of
baseline data during the first two and a half years
following adoption” of the regulation. Id. at 1476.
These provisions led the Light court to conclude that

10
the plaintiffs’ fears that implementation of the
regulation would result in violations of the rule of
priority were “premature” until specific limitations
on diversions were imposed under locally developed
water demand management programs. Id. at 1490.
The regulation at issue in Light is distinguishable
from the regulations at issue here. The State Board
curtailed Stanford Vina’s diversions soon after its
emergency regulations were adopted. See Stanford
Vina Petition, Appendix D at 52 (2020). The trial court
specifically found that adoption of the subject regulation and the curtailment of Stanford Vina’s water
rights was part of a single, integrated and consolidated
regulatory action. Id. at 74, 80, 84. Whereas Light
involved a facial challenge to a two-step regulatory
process before limitations on diversions could be
imposed, this case involves a legislative determination
and a curtailment of diversions imposed upon a small
group of diverters that occurred essentially simultaneously and were part of a single, consolidated, “quasilegislative” action. Legislative, judicial, and executive
actions were exercised with the flip of an administrative switch.
The more fundamental problem than per se rulemaking of the type at issue here is the facile characterization of agency action as quasi-legislative where
vested property rights are affected. As noted above,
the spectrum between quasi-legislative and quasijudicial actions is broad and agency actions can easily
span overlapping features along that spectrum.
Whether a diversion is an unreasonable use may
well fall within the purview of administrative agency
expertise, triggering the deference courts afford such
determinations. But whether due process must be
afforded is self-evidently not a matter of administra-

11
tive expertise, and the question should be examined by
such agencies in accordance with extra-agency guidance, by legislation or, as Amicus asks here, by a
judicially imposed rule. Further, the right of due
process must be determined by agencies according
to definite legal and logical criteria that ensure
the benefit of any doubt will favor constitutional
protection. Amicus urges the Court to provide that
guidance.
II. THIS CASE PRESENTS THE OPPORTUNITY TO FASHION A RULE THAT
PROTECTS DUE PROCESS RIGHTS
REGARDLESS
OF
WHETHER
THE
AGENCY CHARACTERIZES ITS ACTION
AS LEGISLATIVE OR ADJUDICATIVE.
As discussed above, the vagaries of classifying
agency actions as quasi-legislative or quasi-judicial
are well recognized in federal cases expressing the
notion that “the line between legislative and adjudicative action for purposes of procedural due process
analysis is not always easy to draw.” Garcia-Rubiera
v. Fortuno, 665 F.3d 261, 274 (1st Cir. 2011) (explaining an administrative scheme may “contain both
legislative elements—the application of a general rule
to a large number of people—as well as adjudicative
elements—fact-specific determinations of rule compliance in individual circumstances.”); United States v.
Florida East Coast Ry. Co., 410 U.S. 224, 245 (1973)
(“The line dividing them may not always be a bright
one . . . .”); L C & S, Inc. v. Warren County Area Plan
Com’n, 244 F.3d 601, 603 (7th Cir. 2001) (“Unfortunately the line between legislation and adjudication
is not always easy to draw . . . .”); Thomas v. City of
New York, 143 F.3d 31, 36 (2d Cir. 1998) (examining
whether a government action is “in fact, fully legisla-

12
tive or, at least in part, adjudicative.”); Gallo v. U.S.
Dist. Court For Dist. of Arizona, 349 F.3d 1169, 1182
(9th Cir. 2003) (reiterating that the line between
legislation and adjudication is not easy to draw).
Fortunately, this case does not present the question
of whether vested property rights have been affected
by regulation (they have) and therefore whether due
process protections would normally attach (they
would), nor does this case call for a determination of
what form of due process should apply. Here, the sole
question Amicus raises is how the Court can ensure
appropriate due process in instances where agency
action employs either formulaic, per se rules or formalistic invocations of quasi-legislative authority—or
both—to avoid due process protections. Amicus asks
the Court to clarify the need for due process and the
need to ameliorate the effects of such formalisms.
Such clarification would enable this Court to place
a needed check on the often unrestricted accrual of
power to administrative agencies by appropriately
imposing due process restrictions on quasi-legislative
actions in narrow, limited circumstances. This case
perfectly exemplifies the precise situation where a rule
such as the following is appropriate to check agency
actions: When a regulation redefines the scope or
nature of a vested property right in such fashion as to
eliminate due process rights that would otherwise
obtain, such exercise of quasi-legislative power thereby
exceeds its Constitutional authority.
This rule would eliminate administrative authority
to dispense with due process protections by per se
regulation. It would also militate toward due process
protection in cases where assertions of quasilegislative authority are questionable. And, it would
accomplish these ends without burdening administra-

13
tive bodies with prescriptions for extensive or complex
procedures, or require mirror-image replications of
court proceedings.
III. THIS CASE PRESENTS THE OPPORTUNITY TO REQUIRE THAT INVOCATIONS OF QUASI-LEGISLATIVE AUTHORITY PROCEED IN ACCORDANCE WITH
CLEARLY
DEFINED
ANALYTICAL
CRITERIA.
Stanford Vina manages its landowners’ asserted
senior riparian and pre-1914 appropriative water
rights to divert and beneficially use water from Deer
Creek. See Stanford Vina Petition, Appendix D at 5354 (2020). Riparian and pre-1914 appropriative water
rights are vested property rights that cannot be taken
without due process and just compensation. See
United States v. State Water Resources Control Board,
182 Cal.App.3d 82, 100 (1986) (“It is equally axiomatic
that once rights to use water are acquired, they
become vested property rights. As such, they cannot
be infringed by others or taken by government action
without due process and just compensation.”); see also
Casitas Municipal Water District v. United States, 708
F.3d 1340, 1353-1354 (Fed. Cir. 2013); Ivanhoe Irr.
Dist. v. All Parties, 47 Cal.2d 597, 623 (1957). Because
water rights are vested property rights, the State
Board has traditionally utilized adjudicative processes
to issue or modify such rights. See, e.g., Bank
of America, N.A. v. State Water Resources Control
Board, 42 Cal.App.3d 198 (1974); see also Abatti v.
Imperial Irr. Dist., 52 Cal.App.5th 236, 263 (2020)
(“The farmers are beneficial owners of the District’s
water rights . . . and that right is constitutionally
protected.”).

14
The State Board quite openly styled its emergency
regulations and related enforcement actions as quasilegislative to avoid compliance with what it called
“cumbersome” constitutional due process requirements. See Stanford Vina Petition, Appendix N at 192
(2020). An agency acts in a legislative capacity when
it formulates a rule to be applied in future cases and
in an adjudicative capacity when it applies such a rule
to a specific set of facts. Patterson v. Central Coast
Regional. Com., 58 Cal.App.3d 833, 840 (1976). As
federal courts have done, California courts have also
recognized that the line between judicial and legislative decision-making is not always clear. Consequently, California courts have traditionally applied a
comprehensive functional analysis in determining
whether an action is quasi-judicial or quasi-legislative
in nature. Wilson v. Hidden Val. Mun. Water Dist.,
256 Cal.App.2d 271, 280 (1967). In undertaking such
a comprehensive functional analysis, California courts
have traditionally considered a variety of factors,
including (i) whether the agency is determining a
question of right or obligation, or of property, (ii)
whether the agency’s action determines individual
rights, or involves the exercise of a discretion governed
by considerations of the public welfare, (iii) whether
the agency’s action resolves the rights and interests of
individuals or resolves fundamentally political questions, and (iv) whether the agency’s determination
is informed by how it will affect a large community.
Id; California School Boards Assn. v. State Bd. of
Education, 240 Cal.App.4th 838, 847 (2015).
Here, the Court of Appeal declined to undertake the
comprehensive functional analysis required by law.
Instead, the Court of Appeal merely stated, in conclusory fashion, that it had “no difficulty concluding the
regulations formulated a rule to be applied to future

15
cases, and were therefore legislative in nature.”
Stanford Vina Ranch Irrigation Co. v. State, 50
Cal.App.5th 976, 996 (2020). But, the Court of Appeal
found no difficulty because it strained to avoid finding
any. Indeed, the future effect of the rule at issue is
indistinguishable on its face from a court-ordered
injunction, an action that could hardly be confused
with legislative rulemaking.
Had the Court of Appeal undertaken the required
comprehensive functional analysis, whether of the
APA variety discussed in federal cases or according to
the four criteria above, it would have been forced to
grapple with a number of critical facts that render the
State Board’s actions in this instance quasi-judicial in
nature. First, the number of persons directly affected
by the subject emergency regulations is extremely
small. See Stanford Vina Petition at 8 (2020) (regulations applied to only seventeen Deer Creek water right
holders). Second, because water rights are a species of
real property, the emergency regulations indisputably
determine a question of property rights—in this case,
whether Stanford Vina’s continued exercise of its
senior water rights was unreasonable. Third, the
State Board adopted the emergency regulations based
in part on its authority under the public trust doctrine,
which requires the State Board to balance the
interests of the public with Stanford Vina’s specific
private interests—which it clearly did not do. See
Natl. Audubon Soc. v. Superior Court, 33 Cal.3d 419,
445 (1983) (describing duty to protect public trust
resources “whenever feasible”).
The State Board also adopted the emergency regulations based on Article X, Section 2 of the California
Constitution, which mandates that the water
resources in California be put to reasonable and

16
beneficial use to the fullest extent possible. Courts
have repeatedly emphasized that the determination of
what constitutes an unreasonable use of water is a
factual determination that must account for competing uses and assess alternatives in the context of
Article X, Section 2’s mandate that water “be put to
beneficial use to the fullest extent” possible. See e.g.,
Joslin v. Marin Mun. Water Dist., 67 Cal. 2d 132, 139
(1967). These factual determinations, and the balancing required under Joslin and its progeny, are
nowhere to be found in the Court of Appeal’s opinion.
Indeed, none of the relevant factors present here—the
small number of parties directly affected by the
regulations, their application to a form of real
property, and the requirement that the State Board
balance competing trust uses and make specific
factual findings in exercising its authority under
the public trust doctrine and Article X, Section 2—
supported the Court of Appeal’s holding that the State
Board’s action was legislative in nature.
In Harris v. County of Riverside, the Ninth Circuit
characterized the U.S. Supreme Court’s decision in
Bi-Metallic Investment Co. v. State Board of Equalization, 239 U.S. 441 (1915), as impliedly recognizing that
it is “the character of the action, rather than its label”
that determines whether due process rights apply. See
Harris v. County of Riverside, 904 F.2d 497, 502 (9th
Cir. 1990). The Ninth Circuit said, “[i]n determining
when the dictates of due process apply, however, we
find little guidance in formalistic distinctions between
‘legislative’ and ‘adjudicatory’ or ‘administrative’ government actions.” Id. Rather, the court should look to
the nature of the action and apply the tools and tests
described in the above sections. In Harris, the Ninth
Circuit said “[a]s the California Supreme Court has
expressly cautioned, land use planning decisions less

17
extensive than general rezoning c[an] not be insulated
from notice and hearing requirements by application
of the ‘legislative act’ doctrine.” Id. (internal quotations omitted) (citing Horn v. County of Ventura, 24
Cal.3d 605, 613 (1979).
Therefore, according to the Ninth Circuit, a safeguard to ensure that quasi-legislative agency actions
do not infringe on due process rights is determining
due process rights based on “the character of the
action,” which strongly implies examining the nature
of the rights affected, “rather than its label.” See
Harris v. County of Riverside, 904 F.2d 497, 502 (9th
Cir. 1990). The fact that an action is given the nametag “quasi-legislative” or even “rulemaking” does
not prevent it from containing a component that is
“quasi-judicial” with due process rights attached. See
Vermont Yankee Nuclear Power Corp. v. Natural
Resources Defense Council, Inc., 435 U.S. 519, 542
(1978) (“[E]ven in a rulemaking proceeding when an
agency is making a ‘quasi-judicial’ determination . . .
in some circumstances additional procedures may be
required in order to afford the aggrieved individuals
due process.”).
Amicus urges this Court to mandate the use of an
analytical framework similar to that set forth in
Wilson, supra, or in any number of federal cases to
ensure fairness in the determination of whether due
process protections apply. As noted above, deference
to agency expertise may extend to many of its
regulatory activities. Nothing suggests, however, that
agency expertise extends to determinations of whether
due process protections apply, at least not without the
benefit of a well-constructed analytic framework to
guide those decisions.

18
IV. THE PETITION PRESENTS A UNIQUE
OPPORTUNITY TO GUIDE ADMINISTRATIVE POWER AND PROTECT THE
SEPARATION OF POWERS.
The ease with which both the State Board and the
Court of Appeal determined the legislative nature of
the agency action testifies to the threat of consolidation of governmental authority—legislative, executive,
and judicial—within the administrative state. The
Court of Appeal could only have made this determination in the way it did, without meaningful analysis,
because it has become second nature to accept with
little question the sovereignty of agencies over
all aspects of the matters they regulate. Mandating
agencies to observe a definitive rule for according due
process, and engaging in genuine analysis of the
character of their actions for the same purpose,
provide a means of guiding the exercise of administrative power so that its continuing growth is not wholly
uncontrolled.
The growing accrual of power in the administrative
state risks not only due process protections, but
naturally calls into question how adequately protected
the separation of powers is itself. Then-Judge Gorsuch
discussed the importance of separation of powers, and
how the founders considered separation of powers
“a vital guard against governmental encroachment
on the people’s liberties” in Gutierrez-Brizuela v.
Lynch, 834 F.3d 1142, 1149 (10th Cir. 2016). There,
he observed that the Court has allowed “executive
bureaucracies to swallow huge amounts of core
judicial and legislative power and concentrate federal
power in a way that seems more than a little difficult
to square with the Constitution of the framers’
design.” Id. Judge Gorsuch continued, “[t]he very idea

19
of self-government would soon be at risk of withering
to the point of pointlessness” if separation of powers
broke down. Id. “A government of diffused powers,
they [the founders] knew, is a government less capable
of invading the liberties of the people.” Id.
Similarly, as Chief Justice Roberts observed in Free
Enterprise Fund v. Public Co. Accounting Oversight
Bd., 561 U.S. 477 (2010):
One can have a government that functions
without being ruled by functionaries, and
a government that benefits from expertise
without being ruled by experts. Our Constitution was adopted to enable the people to
govern themselves, through their elected
leaders. The growth of the Executive Branch,
which now wields vast power and touches
almost every aspect of daily life, heightens
the concern that it may slip from the
Executive's control, and thus from that of the
people.
Free Enterprise Fund v. Public Co. Accounting
Oversight Bd., 561 U.S. 477, 499 (2010).

20
CONCLUSION
The petition for writ of certiorari presents a clear
record on undisputed facts to add needed protections
against unchecked administrative actions, especially
those taken, as here, at numerous removes from any
voting constituency. Providing the guidance Amicus
requests can only help channel the considerable
energies of the administrative state toward the due
process safeguards that in large part lend vested
property rights their value. Amicus respectfully urges
the Court to grant the petition.
Respectfully submitted,
STEVEN P. SAXTON
Counsel of Record
DOWNEY BRAND LLP
621 Capitol Mall
18th Floor
Sacramento, CA 95814
(916) 444-1000
ssaxton@downeybrand.com
Counsel for Amicus Curiae
January 21, 2021

